                                                 NATIONAL
                                                  OFFICE OFSCIENCE
                                                           INSPECTOR
                                                                   FOLlNDATlON
                                                                     GENERAL



 qf$$j
 z
  4
     o
      &Q D AT'
                 o
                                                    OFFICE OF INVEST[GATIONS

                                            CLOSEOUT MEMORANDUM
                                                                    I

Case Number: I07090036                                                                      Page I of 1




         The Office of Investigations-Office of Inspector General (OIG) initiated an investigation based
         on a referral' that an awardee2 overcharged NSF during a grknt.3

         Our investigation found no fraud. However, our investigation found the awardee inadvertently
         applied an incorrect overhead rate to the labor associated with the award. The awardees' use of
         an incorrect overhead rate resulted in an overcharge to NSF. ' Based on our findings, the awardee
         reimbursed NSF the amount of the overcharge.' ~ccordin~l;,no further action is warranted and
         this case is closed.




      -: 4




NSTOIG For1nZ(l1/02)
